MEMORANDUM FOR:                RAYMOND L. BRAMUCCI
                               Assistant Secretary
                                for Employment and Training


FROM:                          JOHN J. GETEK
                               Assistant Inspector General
                                for Audit


SUBJECT:                       Audit of Glenmont Job Corps Center
                               Final Report No. 02-01-201-03-370


The attached subject final report is submitted for your review. We are making no recommendations
and no response is necessary.

It is your office’s responsibility to promptly transmit the attached report to Career Systems
Development Corporation (CSDC). However, we are providing a courtesy copy directly to them.

If you have any questions concerning this report, please contact Richard H. Brooks, Regional Inspector
General for Audit, at (212) 337-2566.




Attachment


cc:   Joseph Semansky, Regional Job Corps Director
      Charles W. Grundman, President and CEO, CSDC
      John F. Muto, Senior Vice President, Finance, CSDC
             AUDIT OF
      GLENMONT JOB CORPS CENTER


CONTRACT NOS. 2-94-JC-10-36 AND 2-99-JC-11-36
    JULY 1, 1999 THROUGH JUNE 30, 2000




                         U.S. DEPARTMENT OF LABOR
                         OFFICE OF INSPECTOR GENERAL

                         REPORT NO: 02-01-201-03-370
                         DATE: October 10, 2000
                                                  TABLE OF CONTENTS




ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION:

          BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

          AUDIT OBJECTIVE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

          AUDIT SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

ASSISTANT INSPECTOR GENERAL’S REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

EXHIBITS

      A -      CONSOLIDATED SCHEDULE OF CENTER OPERATION
               EXPENSE CATEGORIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

      B -      CONTRACT NO. 2-94-JC-10-36 - SCHEDULE OF
               CENTER OPERATION EXPENSE CATEGORIES . . . . . . . . . . . . . . . . . . . . 7

      C -      CONTRACT NO. 2-99-JC-11-36 - SCHEDULE OF
               CENTER OPERATION EXPENSE CATEGORIES . . . . . . . . . . . . . . . . . . . . 8
                  ACRONYMS




CSDC   Career Systems Development Corporation


DOL    U. S. Department of Labor


ETA    Employment and Training Administration


GJCC   Glenmont Job Corps Center


PRH    Policy Requirement Handbook




                         i
                            EXECUTIVE SUMMARY



The U.S. Department of Labor, Office of Inspector General conducted an audit of expenses claimed
by Career Systems Development Corporation (CSDC) under contract to operate the Glenmont Job
Corps Center (GJCC) for the period July 1, 1999 through June 30, 2000. The audit objective was to
determine whether the Consolidated Schedule of Center Operation Expense Categories was
presented fairly.

The Department of Labor awarded two contracts to CSDC, a privately owned, for-profit corporation,
to operate GJCC located in Glenmont, New York. Contract number 2-94-JC-10-36 covered the
period September 1, 1994 through August 31, 1999, and contract number 2-99-JC-11-36 covers the
period September 1, 1999 through August 31, 2001. The current contract contains options for 3
additional years for a 5-year total of $35,598,267.

In our opinion, the Consolidated Schedule of Center Operation Expense Categories (Exhibit A)
presented fairly, the results of GJCC’s operations in accordance with applicable laws and regulations
for the period July 1, 1999 through June 30, 2000. We are making no recommendations and no
response to this report is necessary. We wish to thank CSDC’s Senior Vice President of Finance and
the Glenmont staff for their cooperation during this audit.




                                                  1
                                       INTRODUCTION



                                      Job Corps was established in 1964 and is presently authorized
       BACKGROUND                     under Title I, Subtitle C of the Workforce Investment Act of 1998.
                                      The overall purpose of the program is to provide economically
                                      disadvantaged youths aged 16 to 24 with the opportunity to become
more responsible, employable citizens. With annual funding of over
$1 billion, Job Corps is the largest Federal youth employment and training program. Job Corps
provides total support for participants including basic education and vocational classes; dental, medical
and eye care; social skills training; meals; recreational activities; counseling; student leadership activities;
and job placement services.

On August 26, 1999, the Department of Labor awarded contract number 2-99-JC-11-36 to CSDC, a
for-profit company, to operate GJCC. GJCC’s contract base period is September 1, 1999 through
August 31, 2001, and contains options for 3 additional years for a total of $35,598,267. The Job
Corps center is located in Glenmont, New York, with a capacity of 340 students composed of 160
residential and 5 non-residential males, and 170 residential and 5 non-residential females.


                                     Our objective was to determine if the Consolidated Schedule of
    AUDIT OBJECTIVE                  Center Operation Expense Categories reported by CSDC for
                                     GJCC was presented fairly in accordance with Federal requirements
                                     for the period July 1, 1999 through June 30, 2000.


                                     Our audit period was July 1, 1999 through June 30, 2000. GJCC’s
    AUDIT SCOPE AND                  current contract runs from September 1, 1999 through
     METHODOLOGY                     August 31, 2001. Our audit period included the last 2 months of
                                     contract number 2-94-JC-10-36, and the first 10 months of
                                     contract number 2-99-JC-11-36 as shown below.



          Contract No.         Contract Period             Audit Period        Reported Expenses
          2-94-JC-10-          9/1/94 - 8/31/99         7/1/99 - 8/31/99            $1,324,022
          2-99-JC-11-          9/1/99 - 8/31/01         9/1/99 - 6/30/00            $5,669,997
                                                                      Total         $6,994,019




                                                       2
We examined center operation expenses, public vouchers, general ledgers and supporting
documentation including vouchers and invoices, as well as subcontractor vouchers for the education
component. Our testing procedures included both random and judgmental sampling. Our tests
covered $1,984,579 or 28 percent of reported expenses of $6,994,019.

The Job Corps program is defined in the Code of Federal Regulations Title 20. The Federal contract
cost principles set forth in the Federal Acquisition Regulation, Part 31, as well as the PRH, and all other
requirements in the current contract were used as criteria in evaluating the allowability of costs claimed.

The audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. We conducted fieldwork from July 10, 2000 to August 4,
2000, at GJCC located in Glenmont, New York.




                                                     3
Mr. Raymond L. Bramucci
Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C.


                         ASSISTANT INSPECTOR GENERAL’S REPORT


We audited the accompanying Consolidated Schedule of Center Operation Expense Categories
(EXHIBIT A) for the period July 1, 1999 through June 30, 2000, under DOL contract numbers
2-94-JC-10-36 and 2-99-JC-11-36. The costs claimed are the responsibility of Career Systems
Development Corporation management. Our responsibility is to express an opinion on the reported
expenses based on our audit.

We conducted our audit in accordance with generally accepted auditing standards and Government
Auditing Standards issued by the Comptroller General of the United States. These standards require
that we plan and perform the audit to obtain reasonable assurance about whether reported expenses
are free of material misstatements. An audit includes examining, on a test basis, evidence supporting the
reported expenses. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall presentation of the reported expenses.
We believe our audit provides a reasonable basis for our opinion.

The Consolidated Schedule of Center Operation Expense Categories was prepared in conformity
with accounting practices prescribed by the Job Corps’ Policy and Requirements Handbook, Chapter
9, Financial Management, which is a comprehensive basis of accounting other than generally accepted
accounting principles. Allowable costs are established by Federal regulations.

Report on Internal Control

In planning and performing our audit of expenses reported by GJCC for the period July 1, 1999
through June 30, 2000, we considered GJCC’s internal control over financial reporting in order to
determine our auditing procedures for the purpose of expressing our opinion on reported expenses and
not to provide assurances on the internal control over financial reporting. Our consideration of the
internal control over financial reporting would not necessarily disclose all matters in the internal control
over financial reporting that might be material weaknesses. A material weakness is a condition in which
the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements in amounts that would be material in relation to the
financial statements being audited may occur and not be detected within a timely period by employees
in the normal course of performing their assigned functions.

We noted no matters involving the internal control over financial reporting and its operations that we
consider to be material weaknesses.

                                                     4
Report on Compliance with Laws and Regulations

Compliance with laws, regulations, and grant agreement provisions is the responsibility of GJCC. As
part of obtaining reasonable assurance about whether reported expenses are free of material
misstatement, we performed tests of GJCC’s compliance with certain provisions of laws, regulations,
and the contract. However, our objective was not to provide an opinion on overall compliance with
such provisions. Accordingly, we do not express such an opinion.

Opinion on Financial Statement

In our opinion, the Consolidated Schedule of Center Operation Expense Categories presents fairly,
in all material respects, the results of GJCC’s operations in accordance with applicable laws and
regulations for the period July 1, 1999 through June 30, 2000.

Supplementary Information

Our audit was conducted for the purpose of forming an opinion on the Consolidated Schedule of
Center Operation Expense Categories for the period July 1, 1999 through June 30, 2000. The audit
period included July and August 1999, for contract number 2-94-JC-10-36 (Exhibit B), and the period
September 1, 1999 through June 30, 2000, for contract number 2-99-JC-11-36 (Exhibit C) which are
presented for purposes of providing additional analysis of expenses. Exhibits B and C have been
subjected to the auditing procedures applied in the audit of the Consolidated Schedule of Center
Operation Expense Categories and, in our opinion, is fairly stated in all material respects in relation to
the Consolidated Schedule of Center Operation Expense Categories taken as a whole.

This report is intended solely for the information and use of CSDC and ETA and is not intended to be
and should not be used by anyone other than these specified parties. This restriction is not intended to
limit the distribution of this report, which when issued, is a matter of public record.




John J. Getek
Assistant Inspector General
  for Audit

August 4, 2000




                                                    5
